LISA BLATT
(202) 434-5050
lblatt@wc.com

December 16, 2019
BY MESSENGER AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Manfredo M. Salinas v. United States Railroad Retirement Board, No. 19-199

Dear Mr. Harris:
I represent petitioner in the above-captioned matter. In accordance with this
Court’s Rule 15.5, petitioner waives the 14-day waiting period for distributing the petition and
respondent’s brief to the Court. Please do not hesitate to contact me should you need any
additional information.
Sincerely,
Lisa S. Blatt

cc:

The Solicitor General (by U.S. mail)

